No. 20-1415
In the Supreme Court of the United States
__________________
HYUNG JIN “SEAN” MOON,
Petitioner,
v.
HAK JA HAN MOON, HOLY SPIRIT ASSOCIATION FOR
THE UNIFICATION OF WORLD CHRISTIANITY, FAMILY
FEDERATION FOR WORLD PEACE AND UNIFICATION
INTERNATIONAL, HYO YUL KIM, “PETER”, DOUGLAS
D.M. JOO, CHANG SHIK YANG, KI HOON KIM, MICHAEL
W. JENKINS, MICHAEL BALCOMB, FARLEY JONES,
ALEXA WARD, JOHN DOES 1-6,
Respondents.
__________________
On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Second Circuit

__________________
REPLY BRIEF
__________________

AARON M. HERZIG
Counsel of Record
JONATHAN G. POLAK
LYNN ROWE LARSEN
SPENCER S. COWAN
TAFT STETTINIUS & HOLLISTER LLP
425 Walnut Street, Suite 1800
Cincinnati, OH 45202
Phone: (513) 357-8768
Fax: (513) 381-0205
aherzig@taftlaw.com
May 18, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . ii
REPLY BRIEF . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
I.

Mr. Moon’s petition presents a narrow
question, focused exclusively on the
ecclesiastical abstention doctrine’s fraud or
collusion exception. . . . . . . . . . . . . . . . . . . . . . 3

II.

Respondents cannot narrow the scope of the
fraud or collusion exception before this Court
has fully defined that exception.. . . . . . . . . . . 6

III.

Categorical abstention exposes religious
organizations to fraud and other bad-faith
torts. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

IV.

There is no obstacle to reaching the merits
here. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

ii
TABLE OF AUTHORITIES
CASES
Continental Indus. Grp., Inc. v. Altunkilic,
633 F. App’x 61 (2d Cir. 2016) . . . . . . . . . . . . . . 11
Family Federation for World Peace and
Unification International v. Hyun Jin Moon,
2011-CA 003721-B
(D.C. Super. Ct. Dec. 03, 2020). . . . . . . . . . . . . 4, 5
Hill v. Hawks,
No 2:12-cv-364, 2012 WL 12906185
(E.D. Va. Nov. 13, 2012) . . . . . . . . . . . . . . . . . . . . 7
Lewis v. Wells Fargo Bank, N.A.,
No. LA CV12-04540, 2012 WL 12897041
(C.D. Cal. Sept. 12, 2012) . . . . . . . . . . . . . . . . . . . 7
Md. & Va. Eldership of Churches of God v.
Church of God at Sharpsburg, Inc.,
396 U.S. 367 (1970). . . . . . . . . . . . . . . . . . . . . . . . 3
Ricks v. Murphy,
No. A-10-CA-185-LY, 2010 WL 2246287
(W.D. Tex. June 3, 2010) . . . . . . . . . . . . . . . . . . . 7
Serbian E. Orthodox Diocese for U.S. & Can. v.
Milivojevich, 426 U.S. 696 (1976). . . . . . . 3, 6, 7, 9
Watson v. Jones,
80 U.S. 679 (1872). . . . . . . . . . . . . . . . . . . . . . . . . 3

1
REPLY BRIEF
Respondents agree that Mr. Moon’s petition
presents a narrow, unanswered question: whether a
federal court has jurisdiction to conduct even a
minimal review of allegations of fraud, collusion, or
other tortious conduct within a religious organization.
Br. in Opp. at 9. Respondents quibble with whether
this is the right case in which to answer that question.
But if Respondents are correct, no case presenting this
question will ever reach this Court. The question
presented is about when a case should survive a motion
to dismiss for lack of jurisdiction under the
ecclesiastical abstention doctrine. Only cases that are
dismissed for lack of jurisdiction will raise this
question, and every case that is dismissed will have the
vehicle problems that Respondents perceive—standard
challenges to all complaints, such as the specificity of
pleading. The trial court did not even reach those
issues precisely because it decided that it did not have
jurisdiction under the ecclesiastical abstention
doctrine. If this Court established a fraud or collusion
exception, the trial court would have kept jurisdiction
and reached the substance of the case.
Respondents claim that even if a fraud or collusion
exception existed, it would not apply to this case.
Perhaps they are correct—various Justices’ references
to potential fraud exceptions are as narrow as
Respondents say. The problem is that no litigant or
court knows the answer to that question. This Court
needs to resolve it. Respondents’ suggestion about what
they think the fraud or collusion exception might mean
only underscores the point that we are all guessing

2
until this Court announces whether an exception exists
and describes its contours.
Answering this question is important because
abstention deprives Mr. Moon of the only possible
forum to resolve this dispute. There are no other
governing or quasi-judicial bodies to resolve this
dispute, which explains why different groups within
the Unification Church—including Respondents—have
turned to the courts for guidance. But the consequences
of abstention extend beyond Mr. Moon. At bottom, this
Court’s ecclesiastical abstention doctrine fails to
recognize the threats faced by modern religious
organizations. And, simultaneously, the doctrine
overstates the potential harm from narrow judicial
intervention to resolve fundamentally secular disputes
involving fraud and related torts. This imbalance is a
disservice to religious organizations and their
members. But there is daylight between categorical
abstention and unconstitutional interference with the
free exercise of religion. Mr. Moon’s petition presents
an ideal opportunity for this Court to refine that
doctrine and articulate a formal exception in cases of
fraud, collusion, and bad-faith tortious conduct.
Granting certiorari would end the uncertainty
around this important jurisdictional question.
Declining review allows this uncertainty to continue
with the effect of immunizing rogue actors determined
to pillage religious organizations with impunity.

3
I.

Mr. Moon’s petition presents a narrow
question, focused exclusively on the
ecclesiastical abstention doctrine’s fraud
or collusion exception.

The parties agree that this Court has not defined
the scope of the ecclesiastical abstention doctrine,
nearly 150 years after it first recognized the doctrine in
Watson v. Jones, 80 U.S. 679 (1872). To be sure, there
is clarity at one end of the spectrum. Courts should
abstain from disputes that are “strictly and purely
ecclesiastical in [their] character.” Id. at 733. Likewise,
courts should avoid resolving “doctrinal questions” or
from making an “extensive inquiry into religious
policy.” See, e.g., Md. & Va. Eldership of Churches of
God v. Church of God at Sharpsburg, Inc., 396 U.S.
367, 370 (1970). But that is not this case here. Mr.
Moon has never asked a court to interpret religious
texts, decipher church doctrine, or scrutinize a religious
decision against the backdrop of church policy.
Mr. Moon presents an altogether different question:
whether courts may exercise jurisdiction when a party
alleges a dishonest, fraudulent scheme to take control
of a religious organization. Respondents concede that
this Court has not applied a fraud or collusion
exception to the First Amendment’s ecclesiastical
abstention doctrine—but that it has left open the
possibility of “civil court review under the narrow
rubrics of fraud or collusion.” Serbian E. Orthodox
Diocese of U.S. & Can. v. Milivojevich, 426 U.S. 696,
713 (1976) (internal quotation marks omitted). This
Court should not leave that question unanswered any
longer.

4
Respondents inaccurately frame this case as a pure
leadership dispute within the Family Federation and
the Unification Church—and discourage judicial review
over these kinds of disputes, no matter the misdeeds of
the defendants. But there are two key reasons to reject
Respondents’ claim that no court may exercise
jurisdiction to resolve a leadership dispute within a
religious organization. First, when tortfeasors take
control of an entire religious organization through
fraud, collusion, or other bad-faith conduct, the need
for judicial intervention is arguably greater than in any
other circumstance. That conduct poses an existential
threat to the religious organization—particularly if the
tortfeasors (like Respondents) misappropriate assets
and retaliate against members who expose their
wrongdoing. Categorical abstention only encourages
such conduct. This Court should grant Mr. Moon’s
petition to refine its ecclesiastical abstention doctrine
and account for the harm that fraudulent or bad-faith
tortious conduct poses to the free exercise of religion.
Second, this is not a leadership dispute within a
purely religious organization, driven by a theological
disagreement. Mr. Moon’s complaint describes a
fraudulent scheme motivated by power and money, not
church doctrine or spirituality. Mr. Moon alleges fraud
and related tortious conduct within the Family
Federation, a massive organization with secular
functions and assets.1 In particular, Respondents:

1

No one disputes that many business interests are at stake in the
numerous lawsuits among the Moons, including The New Yorker
Hotel, a 43-story Manhattan hotel. Pet. App. 50–51; see also
Family Federation for World Peace and Unification International

5
• Pressured Mr. Moon into resigning from
leadership positions within the Unification
Church under false pretenses;
• Coerced Mr. Moon to move to the United States
to resolve a leadership dispute, only to later
remove him from that role;
• Retaliated against Mr. Moon by suspending him
from additional Unification Church leadership
positions after Mr. Moon exposed corruption and
self-dealing within that organization; and
• Committed wire and mail fraud by sending
documents to Family Federation members
containing false statements about Mr. Moon.
Pet. App. 66–69; 92-97.
It is no surprise that Respondents want to shroud
these misdeeds under the ecclesiastical abstention
doctrine.2 Outside of the courts, Mr. Moon has no
remedy; Family Federation has no internal procedures
or governing body to rectify this misconduct. So,
Respondents mischaracterize this dispute as
doctrinally driven to escape all judicial scrutiny and
permanently deny Mr. Moon judicial relief. The

v. Hyun Jin Moon, 2011-CA 003721-B (D.C. Super. Ct. Dec. 03,
2020).
2

Conveniently, Respondents have argued against applying the
ecclesiastical abstention doctrine in other contexts, largely because
there are no forums within the Family Federation or the
Unification Church to resolve these disputes.

6
question, however, is whether Respondents should be
able to do so.
Abstention deprives Mr. Moon of a neutral forum to
resolve allegations of fraud and related tortious
conduct that threaten the Family Federation’s
existence. And beyond Mr. Moon, abstention shields
those determined to pillage a religious organization.
This Court should avoid both outcomes by granting Mr.
Moon’s petition and formally recognizing a fraud or
collusion exception to the ecclesiastical abstention
doctrine.
II.

Respondents cannot narrow the scope of
the fraud or collusion exception before this
Court has fully defined that exception.

Although Respondents concede that the existence of
a fraud or collusion exception remains unanswered,
they nonetheless try to narrow the scope of that
exception before this Court has even defined it.
First, Respondents oppose Mr. Moon’s petition
because Mr. Moon has not alleged a stand-alone fraud
claim. That argument, however, is unfounded: this
Court has never suggested that the fraud or collusion
exception applies only when a party pleads a standalone fraud claim. In Milivojevich, for example, this
Court noted that “[n]o issue of ‘fraud’ or ‘collusion’ is
involved in this case” and so declined to address
whether the fraud or collusion exception applied.
Milivojevich, 426 U.S. 696, 713 n.7 (1976) (emphasis
added). But there is no requirement that the party
seeking jurisdiction under the fraud or collusion
exception may plead only a fraud claim. Requiring a

7
party to plead a stand-alone claim for collusion makes
even less sense, given that many states do not
recognize “collusion” as an independent cause of action.
See, e.g., Hill v. Hawks, No. 2:12-cv-364, 2012 WL
12906185, at *2 (E.D. Va. Nov. 13, 2012) (“[T]here is no
cause of action for ‘collusion.’”); Lewis v. Wells Fargo
Bank, N.A., No. LA CV12-04540, 2012 WL 12897041,
at *2 (C.D. Cal. Sept. 12, 2012) (collusion is a legal
doctrine, not a cause of action); Ricks v. Murphy, No. A10-CA-185-LY, 2010 WL 2246287, at *4 (W.D. Tex.
June 3, 2010) (“[T]here is no cause of action for
collusion or for misappropriation of funds.”).
This Court’s language in Milivojevich confirms that
the exception is nowhere near as narrow as
Respondents suggest. Lower courts should exercise
jurisdiction when bad-faith tortious conduct—be that
fraud, collusion, breach of fiduciary duty, or other
intentional torts—comprises a stand-alone claim or
embeds a separate claim. If bad-faith tortious conduct
is an issue in the case, ecclesiastical abstention may not
be proper, regardless of the particular claims the
parties have alleged. And here, Mr. Moon has alleged
specific claims premised on Respondents’ fraudulent
conduct. Through his breach of fiduciary duty claim,
Mr. Moon alleges that Respondents orchestrated the
fraudulent scheme to misappropriate assets and to
remove him from the organization. In other words,
allegations of fraud undergird that tort claim. And if
that were not enough, Mr. Moon alleges multiple RICO
violations, including specific counts alleging mail
fraud, wire fraud, and money laundering.

8
Second, Respondents try to discourage judicial
review by claiming that the fraud or collusion exception
applies only if the fraud or collusion serves some
secular purpose. But even if that is true, that
proposition does Respondents no favors. Respondents
cannot dispute that Family Federation officials
executed their scheme for a secular purpose: power and
money. Mr. Moon’s complaint describes how Family
Federation leaders drew excessive salaries and
misappropriated assets that belonged to him and to the
organization. When Mr. Moon exposed that
wrongdoing, Family Federation officials demanded his
silence and then retaliated, removing him from his
leadership positions within the organization. That
scheme served no purpose, other than to empower and
enrich Respondents. There is no reason to treat
Respondents differently from any other wrongdoer,
simply because they have cloaked their misdeeds under
the guise of religion.
III.

Categorical abstention exposes religious
organizations to fraud and other bad-faith
torts.

Respondents oppose the creation of any exceptions
to the ecclesiastical abstention doctrine. They would
leave religious organizations defenseless to fraud and
other bad-faith tortious conduct. Denying victims—like
Mr. Moon—a neutral judicial forum sends a clear
message to would-be tortfeasors: there are no
consequences for fraud, collusion, or bad-faith tortious
conduct, so long as they conceal their conduct under the
guise of religion. The effects of categorical abstention
are not hard to envision. What stops a church treasurer

9
from transferring the title of church assets to his name;
if he declares himself the new leader of the church, he
would receive civil immunity, absent some exception to
the ecclesiastical abstention doctrine. Categorical
abstention, which Respondents advocate, would
prevent religious organizations and their members
from remedying this kind of conduct.
Justice Rehnquist recognized the dangers of
categorical abstention and warned that civil courts “can
easily be converted into handmaidens of arbitrary
lawlessness.” Milivojevich, 426 U.S. at 727 (Rehnquist,
J., dissenting). That warning came true when the lower
courts dismissed Mr. Moon’s claims under the
ecclesiastical abstention doctrine, notwithstanding his
allegations of fraud and other bad-faith tortious
conduct. This Court should correct that injustice by
granting Mr. Moon’s petition and providing Mr. Moon
a forum to litigate his case. And it should formally
recognize an exception to the ecclesiastical abstention
doctrine in cases alleging fraud, collusion, or other badfaith tortious conduct.
IV.

There is no obstacle to reaching the merits
here.

Respondents try to discourage further judicial
scrutiny by overstating the threat of potential vehicle
problems. Respondents’ perception of Mr. Moon’s
complaint is no reason to deny his petition—and
Respondents’ argument, taken to its logical conclusion,
would bar review of any petition that asks this Court to
reconsider its ecclesiastical abstention doctrine.
Whenever a court dismisses a case under the
ecclesiastical abstention doctrine (or any other

10
jurisdictional doctrine), it chooses to not decide a claim
on its merits and to leave questions about the strength
of the claim unanswered. But those unanswered
questions should not bar this Court from granting Mr.
Moon’s petition. If they did, no jurisdictional dismissal
would ever warrant certiorari.
In effect, Respondents seek to permanently foreclose
judicial review before the lower courts have addressed
the merits of Mr. Moon’s surviving claims and before
the parties have conducted any discovery on those
claims. But if the pleading or jurisdictional defects
were as profound as Respondents claim, the lower
courts would have decided each claim on the merits.
Instead, the lower courts chose to wade into the
constitutional thicket of ecclesiastical abstention and
dismissed nearly all of Mr. Moon’s claims under that
doctrine.3
Mr. Moon’s complaint details how Respondents
conspired—and executed—a fraudulent scheme to
discredit Mr. Moon and to remove him as leader. Mr.
Moon’s RICO claims alleging mail and wire fraud
schemes, for example, describe a pattern of
racketeering activity that satisfies RICO’s predicate
elements. To that end, Mr. Moon attached documents
to his complaint that Respondents sent to other Family
Federation members; those documents contain false
statements about Mr. Moon and help explain how
Respondents cemented control over the Family
3

For that matter, Respondents did not even raise the purported
pleading and jurisdictional defects in their appellate brief with the
Second Circuit.

11
Federation through mail and wire fraud. Pet. App.
92–97.
Respondents’ brief in opposition also fails to explain
why Mr. Moon’s breach of fiduciary duty and breach of
agency relationship claims are deficient, beyond a
conclusory assertion that they fail to state a claim. But
both claims are well pleaded. Both claims describe with
particularity how Respondents conspired to remove Mr.
Moon from his leadership positions and misappropriate
assets belonging to Mr. Moon and the Family
Federation. Id. at 85–90. In doing so, Respondents
breached their fiduciary duties to—and agency
agreements with—Mr. Moon and the Family
Federation.4
This Court should not decline the opportunity to
resolve a longstanding, unanswered question about its
ecclesiastical abstention doctrine, based on arguments
that the lower courts did not address and that
Respondents did not raise with the Second Circuit.

4

Respondents’ personal jurisdiction defenses are unavailing.
Respondents have never offered evidence to rebut Mr. Moon’s
factual allegations supporting personal jurisdiction in New York.
Hak Ja Han, for example, received service of Mr. Moon’s complaint
in New York but claims she is immune from personal jurisdiction
because she was attending a deposition in a related case. But
because Hak Ja Han did not prove that she was in New York solely
to attend that deposition (and evidence confirms she was in the
United States for an extended visit), she failed to meet her burden
to receive immunity from service of process. See, e.g., Continental
Indus. Grp., Inc. v. Altunkilic, 633 F. App’x 61, 63 (2d Cir. 2016)
(“The burden on these issues rests with the party claiming
immunity.”).

12
CONCLUSION
This Court should grant Mr. Moon’s petition.
Respectfully submitted,
AARON M. HERZIG
Counsel of Record
JONATHAN G. POLAK
LYNN ROWE LARSEN
SPENCER S. COWAN
TAFT STETTINIUS & HOLLISTER LLP
425 Walnut Street, Suite 1800
Cincinnati, OH 45202
Phone: (513) 357-8768
Fax: (513) 381-0205
aherzig@taftlaw.com
Counsel for Petitioner Hyung Jin
“Sean” Moon

